U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: George P. Naum, III v. United States, No. 20-1480
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 20, 2021.
The government’s response is now due, after one extension, on June 23, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 23, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1480
NAUM, GEORGE P., III
USA

RONALD WILLIAM CHAPMAN II
CHAPMAN LAW GROUP
1441 W. LONG LAKE ROAD
SUITE 310
TROY, MI 48098
248-872-6751
RWCHAPMAN@CHAPMANLAWGROUP.COM

